                                                                                 Report No. DODIG-2014-002




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 17, 2013




                     Hotline Allegation Regarding the
                     Follow-up Audit of a Contractor’s
                     Material Management and
                     Accounting System




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Hotline Allegation Regarding the Follow-up Audit
                                   of a Contractor’s Material Management and
                                   Accounting System


October 17, 2013

Objective                                            Findings Continued
We reviewed a DoD Hotline complaint                  We did not substantiate a second allegation that DCAA reported
alleging that during a follow-up audit of a          the entire MMAS system as adequate. DCAA reported the MMAS
DoD contractor’s Material Management and             as “inadequate in part” based on two deficiencies which the
Accounting System (MMAS), a Defense Contract         contractor had not adequately corrected.
Audit Agency (DCAA) auditor:

   •	 concluded that numerous outstanding            Recommendations
      deficiencies were corrected without            DCAA should rescind the MMAS follow-up audit report because
      obtaining sufficient evidence and              the auditor did not obtain sufficient evidence in support of the
                                                     reported opinion. In accordance with DCAA policy, DCAA needs
   •	 reported the       entire   MMAS   system
                                                     to initiate a full audit of the MMAS rather than a limited audit of
      adequate.
                                                     the remaining MMAS deficiencies. Further, DCAA should assess
                                                     whether auditors agency-wide are conducting follow-up audits of
Findings                                             business system deficiencies in a timely manner.
We substantiated the allegation that DCAA
reported several MMAS deficiencies as corrected
                                                     Comments and Response
without obtaining sufficient evidence to
support the opinion. The Gathering Sufficient,       In an August 9, 2013, memorandum, the Director of the Defense
Appropriate Evidence section of generally            Contract Audit Agency agreed with the findings and adequately
accepted government auditing standards               responded to one of two recommendations. The Director did not
requires that auditors obtain sufficient evidence    agree to conduct an agency-wide assessment on the timeliness of
in support of their conclusions. Of the 28           follow-up audits. Therefore, we request additional comments on
deficiencies DCAA reported as corrected, the         this recommendation. Please see the recommendations table on
auditor did not obtain sufficient evidence to        the following page.
conclude that 10 of them were corrected. As a
result, the contractor might not have corrected
the deficiencies and the Government could
be incurring unnecessary material costs. In
addition, we found that the DCAA field audit
office (FAO) did not conduct a second follow-up
of the remaining deficiencies in a timely manner.




Visit us on the web at www.dodig.mil

                                                                        DODIG-2014-002 (Project No. D2012-DIP0AI-0030.000) │ i
                   Recommendations Table
                                                               Recommendations       No Additional
                                    Management                 Requiring Comment   Comments Required
                    Director, Defense Contract Audit Agency           2                   1
                    Please provide comments by November 18, 2013.




ii │ DODIG-2014-002 (Project No. D2012-DIP0AI-0030.000)
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                   October 17, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
		             REGIONAL DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
			             NORTHEASTEN REGION

SUBJECT: Hotline Allegation Regarding the Follow-up Audit of a Contractor’s Material
	        Management and Accounting System (Report No. DODIG-2014-002)

We are providing this report for your review and comment. We substantiated an allegation that
a Defense Contract Audit Agency field audit office did not obtain sufficient evidence to conclude
that a DoD contractor had corrected several previously reported Material Management and
Accounting System deficiencies. As a result, the deficiencies might still exit and result in increased
material costs paid by the Government.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
considered management comments on a draft of this report when preparing the final report.
The Director, Defense Contract Audit Agency, provided comments that were responsive to
one of two recommendations. We request additional comments for Recommendation 2 by
November 18, 2013.

Please provide comments that conform to the requirements of DoD Directive 7650.3. Send
a PDF file containing your comments to the email address cited in the last paragraph on this
memorandum. Copies of your comments must have the actual signature of the authorizing official
for your organization. We cannot accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to our staff. Please direct any questions to Ms. Carolyn R.
Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodig.mil.




					                                   Randolph R. Stone
					                                   Deputy Inspector General
					                                   Policy and Oversight




                                                                                                 DODIG-2014-002 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1

                  Finding A. Auditor Concluded that Material
                  Management and Accounting System Deficiencies
                  Were Corrected Without Obtaining Adequate
                  Evidence____________________________________________________________________________________3
                  Allegation_________________________________________________________________________________________3
                  Second MMAS Follow-up Audit _________________________________________________________________4
                  Recommendations, Management Comments, and Our Response____________________________6

                  Finding B. Alleged Reporting of the Material
                  Management and Accounting System as Adequate ________9
                  Allegation_________________________________________________________________________________________9

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 10
                  Appendix B. Deficiencies Reported as Corrected Without Obtaining Adequate
                  Evidence________________________________________________________________________________________ 11
                  Appendix C. Chronology of Events___________________________________________________________ 15

                  Management Comments
                  Defense Contract Audit Agency Comments__________________________________________________ 16

                  Acronyms and Abbreviations______________________________________________ 19




iv │ DODIG-2014-002
                                                                                             Introduction




Introduction
Objective
We conducted this review to determine the validity of a DoD Hotline allegation concerning
the conclusions rendered by a Defense Contract Audit Agency (DCAA) auditor who
performed a follow-up audit of a contractor’s Material Management and Accounting
System (MMAS). Specifically, the complainant alleges that the auditor:

         a.	 concluded the DoD contractor had corrected numerous system deficiencies
            without obtaining sufficient evidence and

         b.	 inappropriately reported the MMAS as adequate as a whole even though
            several significant deficiencies existed.

See Appendix A for details of our scope and methodology.


Background
Material Management and Accounting System Standards
Defense Federal Acquisition Regulation Supplement (DFARS) clause 252.242-7004,
“Material Management and Accounting System,” requires DoD contractors to maintain an
MMAS that reasonably forecasts material requirements, ensures material costs are based
on valid time-phased requirements, and has a consistent, equitable, and unbiased logic
for costing of material transactions.

The clause lists 10 system criteria (also known as “MMAS standards”) for determining the
acceptability of an MMAS. For example, DFARS clause 252.242-7004(d)(2), also known as
“Standard 2,” states that a DoD contractor’s MMAS must, “Ensure that costs of purchased
and fabricated material charged or allocated to a contract are based on valid time-phased
requirements as impacted by minimum/economic order quantity restrictions.”

For contracts that include DFARS clause 252.242-7005(e)(1), “Contractor Business
Systems,” contracting officers must withhold 5 percent of payments from a DoD
contractor if significant deficiencies exist with one of the contractor’s business systems
(such as the MMAS).


Defense Contract Audit Agency
DCAA performs contract audits for DoD and provides accounting and financial
advisory services to DoD Components responsible for procurement and contract



                                                                                         DODIG-2014-002 │ 1
Finding A



                 administration. The Agency issues reports resulting from several types of audits, such
                 as audits of a DoD contractor’s MMAS. DCAA performs MMAS audits to determine if
                 the internal controls are effective and whether the system complies with the 10 standards
                 contained in DFARS clause 252.242-7004.

                 DCAA includes a Headquarters, Field Detachment, and five regions: Central, Eastern,
                 Mid‑Atlantic, Northeastern, and Western. Each region maintains several field audit
                 offices (FAOs), and each FAO is composed of multiple audit teams. A field audit office
                 manager oversees each field audit office, and a supervisor leads each audit team.


                 Audit Reports
                 In September 2005, a DCAA FAO in the Northeastern Region issued an audit report
                 (hereafter referred to as “the original audit”) on a contractor’s MMAS, citing 30
                 deficiencies involving 8 of 10 MMAS standards contained in DFARS clause 252.242-7004.
                 In January 2007, the FAO initiated a follow-up audit to determine if the contractor had
                 taken adequate corrective action on the 30 reported deficiencies (hereafter referred to
                 as “the follow-up audit”). Different auditors performed the original and follow-up audits.

                 On September 8, 2008, the DCAA FAO issued its report on the follow-up audit, stating that
                 the contractor had adequately corrected 28 of the 30 deficiencies. The report indicated
                 that 2 of the 30 deficiencies were still outstanding. The DoD Hotline complaint addressed
                 in this report involves the conclusions reached by the DCAA auditor who performed the
                 follow-up audit. The auditor who performed the follow-up audit retired from DCAA
                 in December 2011.

                 In August 2011, the FAO initiated a second follow-up audit on the two remaining
                 deficiencies. The second follow-up audit is still ongoing.




2 │ DODIG-2014-002
                                                                                                  Finding A




Finding A
Auditor Concluded that Material Management and
Accounting System Deficiencies Were Corrected
Without Obtaining Adequate Evidence
We substantiated an allegation that DCAA did not have sufficient evidence to conclude
that a DoD contractor had adequately corrected several MMAS deficiencies. Of the
28 deficiencies reported as adequately corrected in the follow-up audit, the auditor did
not obtain sufficient evidence to conclude that 10 of them were corrected.

In FY 2011, the DoD contractor’s MMAS addressed in this report processed approximately
$2.2 billion in material costs that were charged to Government contracts. Without
an adequate MMAS, the Government does not have a reasonable basis for relying on
the accuracy of material costs charged by the DoD contractor. Because the auditor
inappropriately determined that the contractor had eliminated deficiencies without
obtaining sufficient evidence, the deficiencies could still exist and result in increased
material costs paid by the Government.



Allegation
The complainant alleged that a DCAA auditor who performed a follow-up audit of a major
DoD contractor’s MMAS did not conduct an adequate audit and improperly concluded that
the contractor had corrected several previously reported deficiencies. The complainant
stated that the auditor did not obtain sufficient evidence and made “very few” visits to the
contractor facility during the audit.


Insufficient Evidence Obtained by the Auditor
The Gathering Sufficient, Appropriate Evidence section of generally accepted
government auditing standards (GAGAS), paragraph 6.56, requires that auditors
obtain sufficient evidence in support of their findings and conclusions. In addition,
DCAA Contract Audit Manual section 5-105(b), “Scope of Audit,” requires that the auditor
include tests to ensure that the contractor’s internal controls (such as the MMAS internal
controls) are in place and operating effectively.




                                                                                            DODIG-2014-002 │ 3
Finding A



                 The auditor who performed the follow-up audit (hereafter referred to as “the follow‑up
                 auditor”) failed to obtain sufficient evidence to determine that the contractor had
                 corrected 10 deficiencies in the following areas:

                       1.	   Bills of Material,

                       2.	   Testing of Material Time-Phasing,

                       3.	   Material Transfers/Diversions,

                       4.	   Manufacturing Resources Planning Access,

                       5.	   Transaction Testing,

                       6.	   Incomplete Contractor-Furnished Materials Diversion Forms,

                       7.	   Borrow/Lend Transactions Without Approved Written Requests,

                       8.	   Access to Internal Reviews Performed by External Auditors,

                       9.	   Economic Ordering Policies and Procedures, and

                       10.	 Significant Changes to the MMAS.

                 In most cases, the follow-up auditor did not properly test the adequacy or effectiveness
                 of new policies and procedures the contractor had created in response to the reported
                 deficiencies. Without appropriate testing, the follow-up auditor did not have a sufficient
                 basis to conclude that the contractor had implemented the new procedures or fully
                 corrected the deficiencies. See Appendix B for details concerning evidence the follow-up
                 auditor should have obtained to determine if the contractor had corrected the deficiencies.

                 Because the follow-up auditor did not obtain sufficient evidence for several of his
                 conclusions, the FAO should rescind the follow-up audit report and instruct the contracting
                 officer not to rely on its results.


                 Second MMAS Follow-up Audit
                 The FAO is in the process of performing a second follow-up audit on the two deficiencies
                 reported as outstanding in the first follow-up audit.


                 The Second Follow-up Audit is Untimely
                 According to DCAA Contract Audit Manual 5-104f, “Audit Objectives,” the auditor should
                 place a high priority on conducting follow-up audits of previously reported business




4 │ DODIG-2014-002
                                                                                                Finding A



system deficiencies (including MMAS deficiencies). In March 2010, the contracting officer
requested that the DCAA FAO perform a second follow-up audit to review the contractor’s
efforts to eliminate the two outstanding deficiencies and provide the results of the review
by May 2010. Yet, more than 3 years later, the FAO has still not completed the second
follow-up audit. The FAO told us that the completion of the audit was delayed because of
other priority work. It is unreasonable for the FAO to take more than 3 years to complete
a limited follow-up audit of two deficiencies.

The failure of DCAA to conduct a timely follow-up audit compromises the contracting
officer’s responsibility in determining the adequacy of the MMAS, implementing
withholdings in accordance with DFARS 252.242.7005, and reducing or eliminating
withholdings to reflect the contractor’s progress in correcting deficiencies. Contracting
officers might not withhold payments if DCAA does not uphold its responsibility to
conduct timely follow-up audits of contractor corrective actions.

We do not know the extent to which other DCAA FAOs have neglected to conduct timely
follow-up audits of previously reported business system deficiencies (including MMAS
deficiencies). DCAA should assess the timeliness of follow-up audits on an agency-wide
basis and make appropriate improvements to its related quality assurance procedures.


DCAA Should Conduct a Full MMAS Audit
The FAO completed its last full audit of the contractor’s MMAS (an audit of all 10 MMAS
standards) on September 30, 2005, 8 years ago. DCAA Contract Audit Manual 5-103.1,
“Internal Control Audit Policy and Approach,” states,

           It is DCAA’s policy that each relevant accounting or management
           system that has a significant impact on Government contractor
           costs be audited on a cyclical basis (i.e., every 2 – 4 years) based
           on a documented risk assessment. If past experience is favorable
           and current audit risk is considered to be low, an audit may be
           performed on a less frequent basis (however, no less frequently
           than 4 years).

Therefore, the FAO should perform a full audit of the MMAS rather than a limited
follow‑up of the two reported deficiencies. A full review is also warranted because
the follow-up auditor did not obtain sufficient evidence to support several of his
conclusions.




                                                                                          DODIG-2014-002 │ 5
Finding A



                 Recommendations, Management Comments, and Our
                 Response
                 Recommendation 1
                 We recommend that the Director, Defense Contract Audit Agency, direct the
                 Northeastern Regional Director to:

                             a.	 Advise the contracting officer that:

                                (1)	 the September 10, 2008, follow-up report of the Material
                                     Management and Accounting System report is being rescinded
                                     and should not be used for any purpose because the auditor did
                                     not obtain sufficient evidence in support of several reported
                                     conclusions; and

                                (2)	 the Field Audit Office plans to immediately initiate a full review
                                     of the contractor’s Material Management and Accounting
                                     System.

                 DCAA Comments
                 The Director, Defense Contract Audit Agency, agreed and stated that DCAA will notify the
                 contracting officer that the FAO is rescinding the report and initiating a full audit of the
                 contractor’s MMAS in October 2013.


                 Our Response
                 The management comments are fully responsive, and no additional comments are
                 required.

                             b.	 Instruct the Field Audit Office to:

                                (1)	 Rescind the follow-up Material Management and Accounting
                                     System report issued on September 10, 2008;

                                (2)	Cancel the second follow-up Material Management and
                                     Accounting System review; and

                                (3)	 Initiate a full audit of the contractor’s Material Management and
                                     Accounting System in accordance with Defense Contract Audit
                                     Agency policy.




6 │ DODIG-2014-002
                                                                                                   Finding A



DCAA Comments
The Director, Defense Contract Audit Agency, agreed and stated that DCAA will rescind the
report, not issue a report on the second follow-up, and begin a full audit of the contractor’s
MMAS in October 2013.


Our Response
The management comments are fully responsive, and no additional comments are
required.

            c.	 Provide training to the Field Audit Office staff (including the manager,
               supervisors, and auditors) covering the requirement for obtaining
               sufficient evidence in support of reported conclusions.

DCAA Comments
The Director, Defense Contract Audit Agency, agreed “in principle.” Since the issuance of
the follow-up audit in September 2008, the Director pointed out that DCAA has already
provided five agency-wide training programs to its audit staff and issued a new policy
directly related to obtaining sufficient evidence. DCAA believes its continuing actions to
train its audit staff are realizing tangible results.


Our Response
The management comments are responsive. DCAA has recently provided training to the
audit staff and established policy on the requirement for obtaining sufficient evidence. In
future reviews, we will continue to monitor DCAA’s ongoing efforts to ensure that auditors
obtain sufficient evidence in support of its conclusions.


Recommendation 2
The Director, Defense Contract Audit Agency, needs to:

            a.	Assess the timeliness of business system follow-up audits agency-
               wide during the last 3 years;

            b.	 Implement any necessary improvements to help ensure the timeliness
               of follow-up audits on business systems, and

            c.	 Provide the results of the assessment and planned improvements
               to the Assistant Inspector General, Audit Policy and Oversight by
               March 31, 2014.




                                                                                             DODIG-2014-002 │ 7
Finding A



                 DCAA Comments
                 The Director, DCAA, agreed “in principle.” DCAA recognizes that it can improve the
                 timeliness of business system follow-up audits agency-wide. However, the Director stated
                 that the requirements for DCAA services far exceed the available staffing and management
                 must make decisions on which priority assignments take precedence. In addition, the
                 Director does not believe “a detailed assessment of the timeliness of business systems
                 follow-up reviews is a good use of DCAA’s limited resources.”

                 The Director also stated that established guidance allows auditors to report significant
                 business system deficiencies throughout the course of performing other priority audits. In
                 addition, the Director stated that the Agency issued a memorandum requiring milestone
                 plans for all high-risk audits and, as a result, DCAA has seen improvements in meeting
                 agreed-to-dates.


                 Our Response
                 The comments are not responsive, and we request that the Director, Defense Contract
                 Audit Agency, provide additional comments. We disagree that assessing timeliness is not
                 a good use of DCAA’s limited resources. An assessment could identify opportunities, best
                 practices, and lessons learned for improving timeliness.

                 When DCAA reports that a major DoD contractor’s business system contains significant
                 deficiencies as defined in DFARS 252.242-7005, DCAA asserts that the deficiencies
                 materially affect the ability of DoD officials to rely on information produced by the
                 system. If the contracting officer agrees with DCAA, the contracting officer must withhold
                 payments until the contractor eliminates the deficiency. Therefore, DCAA plays a critical
                 role in providing the contracting officer with timely information on the status of contractor
                 corrective actions. If DCAA commits resources for conducting a full business system audit
                 and reporting on significant business system deficiencies, then DCAA should place a high
                 priority on performing a limited and timely follow-up of those deficiencies.

                 Although DCAA policy allows for the reporting of significant business system deficiencies
                 in other audits, this does not address the need for performing timely follow-up audits of
                 the deficiencies (including those identified in other audits). Additionally, milestone plans
                 for individual assignments will not improve timeliness if the FAO designates the follow-up
                 audit as a low priority and does not initiate it for several months or years. DCAA, while
                 recognizing the importance of performing follow-up audits, should be willing to assess
                 their timeliness and implement appropriate agency-wide improvements. We request
                 comments in response to the final report by November 18, 2013.




8 │ DODIG-2014-002
                                                                                               Finding B




Finding B
Alleged Reporting of the Material Management and
Accounting System as Adequate
We did not substantiate the allegation that DCAA reported the MMAS as adequate as a
whole.



Allegation
The hotline complainant alleged that the follow-up auditor considered the entire
MMAS system as adequate even though significant deficiencies remained.


DCAA Reported the System as “Inadequate in Part”
As reflected in the working papers of the follow-up audit, the follow-up auditor concluded
that the contractor had not corrected 2 of the 30 originally reported deficiencies.
Consistent with existing DCAA guidance, the DCAA follow-up audit report, Results of
Audit paragraph, describes the MMAS system as “inadequate in part.” DCAA did not report
the MMAS as adequate. Therefore, we did not substantiate the allegation.




                                                                                         DODIG-2014-002 │ 9
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this review in accordance with the Council of the Inspectors General on
                 Integrity and Efficiency “Quality Standards for Inspection and Evaluation.” To determine
                 the validity of the complaint addressed in this report, we:

                          •	 interviewed DCAA auditors and supervisors who were involved with the
                             original and follow-up audits of the contractor’s MMAS;

                          •	 examined DCAA files and correspondence related to the original and
                             follow-up audits; and

                          •	 reviewed the follow-up audit to determine if it complied with applicable
                             regulations, generally accepted government auditing standards, and
                             DCAA procedures.

                 In conducting the interviews, we placed interviewees under oath, recorded the interviews,
                 and obtained a transcript. We performed the review from October 2011 through
                 April 2013. During this timeframe, we had to suspend the review to work on other
                 priority projects.


                 Use of Computer-Processed Data
                 We did not rely on any computer-processed data as part of our review.


                 Prior Coverage
                 During the last 5 years, the DoD Inspector General conducted one Hotline review involving
                 another DCAA audit of a DoD contractor’s MMAS.

                          •	 Report No. DODIG-2013-082, “Hotline Allegation Regarding the Failure to
                             Take Action on Material Management and Accounting System Audit Findings,”
                             May 29, 2013.




10 │ DODIG-2014-002
                                                                                              Appendixes




Appendix B
Deficiencies Reported as Corrected Without Obtaining
Adequate Evidence
Discussed below are details concerning why the follow-up auditor did not obtain sufficient
evidence to conclude that the contractor had corrected 10 of the previously reported
deficiencies.


1.	 Bills of Material
    The original audit report stated that the contractor did not submit policies
    and procedures to describe how it creates bills of material, as DFARS clause
    252.242.7004(d)(1) requires. The follow-up auditor concluded that the deficiency
    had been corrected based on the contractor’s preparation of a flowchart and narrative
    descriptions depicting how bills of materials are prepared. However, we found no
    evidence indicating that the follow-up auditor tested the accuracy of the flowchart
    or determined if the contractor incorporated the flowchart into its policies and
    procedures.


2.	 Testing of Material Time-Phasing
    The original audit concluded that the contractor did not 1) have written policies
    and procedures in place to assure material requirements are based on valid
    time-phase requirements or 2) measure the accuracy of the master production
    schedule to determine if it meets the 95-percent accuracy goal stated in DFARS
    clause 252.242.7004(d)(2). The follow-up auditor’s working papers showed one
    milestone policy and several schedules. The auditor commented that the schedules
    “highlighted some measurement criteria which the contractor felt can be used to
    measure master production schedule accuracy.” However, we found no evidence
    in the follow-up auditor’s working papers that shows the contractor was actually
    computing a master production schedule accuracy rate or had policies and
    procedures in place requiring the periodic computation of master production
    schedule accuracy.


3.	 Material Transfers/Diversions
    The original audit report stated that the contractor does not have controls in place
    to ensure that 1) material transfers/diversions comply with company policy and
    2) inconsistencies are identified and reported, as DFARS 252.242.7004(d)(3)



                                                                                         DODIG-2014-002 │ 11
Appendixes



                      requires. The follow-up auditor’s working papers state that the contractor revised
                      three policies and procedures to clarify the material/diversion process. In addition,
                      the follow-up auditor included in his working papers 1) a listing of diversion audits
                      done in the last 10 years showing nearly a 100-percent accuracy rate and 2) a
                      “diversion checklist” used by the contractor to review diversions. However, we found
                      no evidence that the follow-up auditor preformed tests to determine if the contractor
                      followed the revised procedures or the contractor correctly calculated the 10-year
                      accuracy rate.


                 4.	 Manufacturing Resources Planning Access
                      The original audit determined that the contractor did not periodically review
                      employee access to its Manufacturing Resources Planning system. In addition, the
                      original audit noted that 14 employees who had access to the system stated they
                      did not need to have access to perform their current duties. The follow-up auditor
                      stated the contractor had revised several policies and procedures to monitor and
                      keep current the names of those granted access. The follow-up auditor’s working
                      papers also contain a memorandum directing 11 employees to be removed from the
                      access list. However, the follow-up auditor did not determine if any of the remaining
                      employees needed access.


                 5.	 Transaction Testing
                      The original audit report stated that the contractor did not comply with Standard 4,
                      DFARS clause 252.242.7004(d)(4), which requires the contractor to have adequate
                      MMAS audit trails and necessary records to evaluate system logic and to verify,
                      through transaction testing, that the system is operating as desired. The follow‑up
                      auditor’s working papers include a contractor memorandum, which states that
                      17 audits were performed within the Material Services department. According to
                      the working papers, the contractor also told the follow-up auditor that six
                      different types of audits were performed in the Material Management department
                      and provided several policies and procedures involving the Planning department.
                      However, the follow-up auditor did not verify that the policies were being
                      effectively implemented or that audits were actually being performed.


                 6.	 Incomplete Contractor-Furnished Materials Diversion Forms
                      The original audit report stated that the Material Services and Material Management
                      departments did not consistently complete the Contractor-Furnished Materials
                      Diversion forms in accordance with policy and department instructions. The follow-



12 │ DODIG-2014-002
                                                                                                                             Appendixes



      up auditor documented that contractor management revised several policies and
      procedures and apprised supervisors and employees of the issue. The follow-up
      auditor’s working papers also stated that the contractor performed two reviews of
      the diversion forms. One of the reviews reflected a 99-percent accuracy rate and the
      other showed a 71-percent accuracy rate. However, we found no evidence the follow-
      up auditor had verified that contractor employees were following the revised policies
      and procedures. In addition, although the follow-up auditor notes in his working
      papers that the 71-percent accuracy rate was below the “acceptable” level, he did not
      include this issue in the follow-up audit report.


7.	 Borrow/Lend Transactions Without Approved Written
    Requests
      In the original audit, DCAA reported that the contractor did not have a policy for
      reviewing or approving borrow/lend transactions1 in accordance with Standard 6,
      DFARS clause 252.242.7004(d)(6). The follow-up auditor’s working papers note
      that the contractor prepared a procedure related to borrow/lend transactions and
      provided a listing of employees authorized to approve borrow/lend transactions.
      However, we found no evidence suggesting the follow-up auditor had verified that
      either the policies were implemented or that only authorized employees were
      approving borrow/lend transactions.


8.	 Access to Internal Reviews Performed by External Auditors
      The original audit report stated the contractor could not demonstrate it had
      conducted internal reviews of the MMAS, as DFARS clause 252.242-7004(c)(2)
      requires. The working papers for the follow-up audit state that the follow-up auditor
      had considered the issue closed because the DCAA Contract Audit Coordinator2
      assumed responsibility for auditing the contractor’s internal review efforts. However,
      the follow-up auditor’s working papers showed no evidence that he attempted to
      obtain the audit results from the Contract Audit Coordinator. Even if the Contract
      Audit Coordinator had not yet completed its audit, the follow-up auditor should have
      qualified the reported opinion in accordance with DCAA policy for non-receipt of the
      Contract Audit Coordinator results.



	1	
    A borrow/lend transaction occurs when one contract borrows needed material from another contract in order to avoid a
    production delay.
	2	
    For larger DoD contractors with operations at multiple locations, DCAA often assigns a Contract Audit Coordinator who
    serves as a central point of communication between company representatives and DCAA auditors performing audits at the
    various locations.




                                                                                                                        DODIG-2014-002 │ 13
Appendixes



                 9.	 Economic Ordering Policies and Procedures
                      The original audit report stated that the contractor does not have policies and
                      procedures in place for purchasing materials based upon economic ordering, as
                      Standard 1, DFARS clause 252.242.7004(d)(1) requires.       The follow-up auditor
                      obtained a draft policy, instruction sheets, and a status report showing the savings
                      associated with economic ordering. However, the follow-up auditor did not verify
                      that the contractor had implemented the draft policy and instruction sheets or test
                      whether the status report was accurate and reliable.


                 10. Significant Changes to the MMAS
                      The original audit report noted that the contractor did not have written policies
                      to describe the criteria for identifying and reporting significant MMAS changes
                      to the contracting officer, as DFARS clause 252.242.7004(c)(3) requires.        The
                      follow-up auditor concluded that the contractor did not need such a policy because
                      “the Government would be aware of significant changes in the MMAS through
                      Government funding” of the changes. We strongly disagree with the follow-up
                      auditor’s conclusion. Contractors generally charge the costs of significant MMAS
                      changes as an overhead or general and administrative expense, not directly to a
                      contract. Therefore, the Government does not separately fund these costs and it
                      might not be aware of significant MMAS changes unless the contractor reports them
                      to the contracting officer in accordance with DFARS clause 252.242.7004(c)(3).
                      DCAA should recommend that the contractor establish procedures to help ensure
                      compliance with the DFARS clause.




14 │ DODIG-2014-002
                                                                                                         Appendixes




Appendix C
Chronology of Events

         Date                                           Description
September 30, 2005      A DCAA FAO located in the Northeastern Region issued the original audit
                        report, citing 30 deficiencies with the contractor’s MMAS.
September 10, 2008      The FAO issued its follow-up audit report stating that the contractor
                        corrected 28 deficiencies, but 2 of the 30 deficiencies still remained.
August 17, 2009         The contractor notified the contracting officer that it had corrected the
                        two remaining deficiencies.
March 24, 2010          The contracting officer requested that the FAO perform a second follow-up
                        on the two remaining deficiencies.
August 2011 (approx.)   The FAO initiated a second follow-up audit to determine if the contractor
                        had adequately corrected the two deficiencies reported as outstanding in
                        the September 10, 2008, follow-up audit. The second follow-up audit is
                        still ongoing.




                                                                                                    DODIG-2014-002 │ 15
Management Comments




                 Management Comments
                 Defense Contract Audit Agency Comments




16 │ DODIG-2014-002
                                              Management Comments



Defense Contract Audit Agency Comments (cont’d)




                                                    DODIG-2014-002 │ 17
Management Comments



                 Defense Contract Audit Agency Comments (cont’d)




18 │ DODIG-2014-002
                                                             Acronyms and Abbreviations




Acronyms and Abbreviations
   DCAA Defense Contract Audit Agency
   DFARS Defense Federal Acquisition Regulation Supplement
     FAO Field Audit Office
  MMAS Material Management and Accounting System




                                                                        DODIG-2014-002 │ 19
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
